May 23, 2007

SUSAN BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT:         Audit Report – Audit of Compliance with the Use of MSC Industrial Supply
                 Co., Inc. and W. W. Grainger, Inc. National Contracts
                 (Report Number CA-AR-07-004)

This report presents the results of our audit of the compliance with the use of MSC
Industrial Supply Co., Inc. (MSC) and W. W. Grainger, Inc. (W.W. Grainger) national
contracts (Project Number 06YG035CA000). This is the first in a series of reports under
our Value Proposition Agreement covering compliance with the terms and conditions of
selected contracts.

                                              Background
In November 2002, U.S. Postal Service officials developed Supply Management’s
5-Year Strategic Plan. One of the goals of the plan was to reduce costs and furthering
competitive and business objectives. To meet this goal, the Postal Service developed a
corporate-wide management strategy for procuring maintenance, repair, and operating
(MRO) supplies.

On March 31, 2003, the Dallas Category Management Center (CMC)1 awarded national
contracts to MSC and W. W. Grainger for the purchase of MRO supplies.2 The period
of performance for the two contracts was 4 years with two 3-year renewal options for a
total of 10 years. Material Logistics Bulletin (MLB) number MLB-CO-03-010, Mandatory
National Sources for Maintenance, Repair & Operating (MRO) Supplies, dated
May 28, 2003, states the mandatory sources for the purchase of MRO supplies are
MSC and W. W. Grainger. From April 1, 2003, through September 30, 2006, the Postal
Service spent more than $106 million for MRO supplies through the two contracts.




1
  The Dallas CMC is responsible for managing and monitoring contracts for MRO supplies for the entire Postal
Service.
2
  Two contracts were awarded to encourage competition, sustain customer choice, and provide the Postal Service
with quality products and service at the best value.
Compliance with the Use of MSC Industrial                                                         CA-AR-07-004
 Supply Co, Inc. and W.W. Grainger, Inc. National Contracts




                           Objectives, Scope, and Methodology
Our overall objectives were to determine whether Postal Service employees are
complying with contract terms and conditions.

To accomplish our objectives, we interviewed Dallas CMC contracting officers and
reviewed contract file documentation, responses received from questionnaires sent to
Postal Service personnel, and guidance establishing the use of the mandatory national
contracts as a priority source of MRO supplies. We obtained database information from
the Electronic Maintenance Activity Reporting System (eMARS)3 on all local purchase
transactions for the period of June 1, 2005, through May 31, 2006. We also obtained all
price lists from MSC and W.W. Grainer that were in effect at the time of the purchases.
Finally, we obtained all eBuy4 purchase transactions for the period of June 1, 2005,
through May 31, 2006.

We conducted this audit from May 2006 through May 2007 in accordance with generally
accepted government auditing standards and included such tests of internal controls as
we considered necessary under the circumstances. We did not audit or
comprehensively validate the eMARS and eBuy systems; however, we noted control
weaknesses that constrained our work. For example, some eMars transactions did not
include key data such as the Primary Equipment Manufacturing Number (OEM) and
National Stock Number (NSN).5 Even though these data limitations constrained our
work, we were able to compensate by applying alternate audit procedures, as discussed
in the report. We discussed our observations and conclusions with management
officials on February 28, 2007 and included their comments where appropriate.

                                       Prior Audit Coverage
There were two prior reports related to compliance with the terms and conditions of
national contracts. The Government Accountability Office (GAO) issued a report titled,
Postal Service’s National Office Supply Contract Has Not Been Effectively Implemented
(Report Number GAO-030230, dated January 2003), which concluded the Postal
Service had not been successful in implementing its national-level contract to purchase
most office supplies and, as a result, has not realized its estimated annual savings of
$28 million. Additionally, the Postal Service Office of Inspector General (OIG) issued
Estimated Supply Chain Management Impact Associated with National Office Supply
Contract (Report Number CA-MA-05-002, dated September 7, 2005), which concluded

3
  eMARS is a computerized maintenance management information system that provides field maintenance personnel
with the ability to schedule maintenance and personnel, track labor and material costs, maintain a spare parts
inventory, and report on maintenance.
4
  eBuy is an electronic commerce portal that provides Postal Service employees with electronic requisitioning,
approval, and invoice certification capability. The Postal Service makes its national contract purchases from MSC
and W.W. Grainger through eBuy.
5
  These data items are necessary to ensure exact item comparison.




                                                        2
Compliance with the Use of MSC Industrial                                                           CA-AR-07-004
 Supply Co, Inc. and W.W. Grainger, Inc. National Contracts




the Postal Service avoided costs of $3.4 million in fiscal year (FY) 2004 by using the
national office supply contract.

                                                   Results
Postal Service personnel were placing orders for MRO supplies outside of the MSC and
W. W. Grainger national contracts. The Postal Service needs enhanced
communications and process improvements to increase its monetary benefits from
these contracts. Specifically, we identified 11,395 MRO supply purchases Postal
Service employees made outside of the national contracts, 7,100 of which were at
prices exceeding those established in the contracts. As a result, the Postal Service
incurred unrecoverable costs of approximately $217,113. We project the Postal Service
will incur over-expenditures of $651,339 in the next 3 years if this practice continues. In
addition, Postal Service contracting officers could save an additional $1,099,773 by
renegotiating prices for selected MRO supplies found at a lower price than in the
national MRO contracts. We will report $217,113 of unrecoverable questioned costs
and $1,751,112 in funds put to better use in our Semiannual Report to Congress. See
Appendix A for a summary of the monetary impact.

Mandated National Maintenance, Repair, and Operating Supply Contracts Were
Not Always Used

Postal Service personnel did not always order MRO supplies using the MSC and W. W.
Grainger national contracts. Originally, we identified 283,263 eMARS transactions with
a total dollar value of $208,526,508 for the period June 1, 2005, through May 31, 2006,
that appeared to be for MRO supplies that should have been ordered through the
national contracts. We excluded 240,344 transactions because some of the
transactions were for non-MRO items (e.g., office and cleaning supplies) and because
in some cases key data — such as OEMs and NSNs — were different or not present
and could not be matched exactly. Thus, we defined our universe to be the 42,9196
exact matches for MRO supplies valued at $10.4 million. We compared the eMARS
purchase price to the eBuy catalog price in effect at the time of the purchase and
identified 7,100 purchases made at prices higher than the eBuy catalog price.




6
 The 42,919 exact matching transactions consisted of the following: 27,414 transactions were made at the same
price as the eBuy catalog price and may have been made using the national contract; 7,100 transactions were made
at prices higher than those in the eBuy catalog; and 4,295 transactions were made at prices less than eBuy catalog
prices (reported in finding number two below).




                                                         3
Compliance with the Use of MSC Industrial                                                              CA-AR-07-004
 Supply Co, Inc. and W.W. Grainger, Inc. National Contracts




The following table shows examples of items and dollars overpaid:

                                       Items and Dollars Overpaid

                                                                                   National
                                                                                   Contract
                                                                  Purchase          eBuy     Total
                 Item                            Quantity           Price           Price   Overpaid
     Xxxxxxxxxxx xx XX                                  X          XXXXXX           XXXXX    XXXXX
     Xxxxxx xxxx                                      XX           XXXXXX          XXXXXX XXXXXX
     Xxxx Xxxxxxx Xxxxxx Xxxx                       XXX            XXXXXX          XXXXXX XXXXXX
     Xxxx Xxxx, xx Xxxx                               XX           XXXXXX           XXXXX    XXXXX
     XXX Xxxxxx XXxXxxX Xxxxxx                        XX             XXXXX          XXXXX XXXXXX
     [xxx]

MLB-CO-03-010 states the MRO contracts are mandatory sources for the procurement
of MRO supplies and must be utilized by all Postal Service employees. The MLB
further states this practice is in place to make sure the Postal Service achieves supply
chain management cost savings through volume discounts. The Postal Service’s
Supplying Principles and Practices also communicates the requirement to use existing
contracts if needs cannot be met with existing assets. Further, Handbook AS-709,
Credit Card Policies and Procedures, Section 333.11, states employees should not use
local buying authority when items are available from national and area contracts and
ordering agreements.

We determined some of these purchases were actually made through local MSC and
W.W. Grainger vendors outside of the eBuy ordering system. Buyers, in some cases,
believed they were making their purchases through the national contracts and were not
aware the prices were more than the eBuy catalog price. In addition, Supply
Management contracting officers manage the MRO contracts; however, the employees
purchasing MRO supplies report to various organizations throughout the Postal Service.
Specifically, most personnel ordering MRO supplies report to district and area
managers who report to the Senior Vice President, Operations. Unless these personnel
use the national MRO contracts, the Postal Service cannot strategically leverage its total
purchase volume to achieve the lowest total cost.

Based on the transactions tested, the Postal Service overspent at least $217,1137
during a 1-year period for MRO supplies purchased outside the national MRO contracts.
We estimate that if Postal Service personnel do not make effective use of the two
national contracts, the Postal Service will incur an over-expenditure of $651,339 over
the next 3 years. As the testable universe was only 15 percent of the total universe of

7
 We calculated our monetary projections using the sum of all transactions with a price difference of 50 cents or
greater.




                                                          4
Compliance with the Use of MSC Industrial                                    CA-AR-07-004
 Supply Co, Inc. and W.W. Grainger, Inc. National Contracts




transactions, the Postal Service may also be incurring over-expenditures on the
remaining 85 percent of the transactions, which we were unable to review.

Recommendation

We recommend the Vice President, Supply Management:

1. Coordinate with the Senior Vice President, Operations, to direct Postal Service
   headquarters, area, and district personnel to use mandatory national maintenance,
   repair, and operating contracts to maximize potential supply chain management
   savings.

Management’s Comments

Management agreed with our finding and recommendation, and with part of the
associated monetary savings. They indicated that they were not in a position to assess
the portion of the monetary savings projected over the next 3 years.

To address the recommendation, Supply Management indicated they would coordinate
with Operations to identify the most effective method to implement our
recommendations. Supply Management’s National Contract Compliance Team and the
MRO Category Management Team will alert cognizant personnel to this finding and
recommendation. Supply Management plans to complete these actions in the third
quarter of FY 2007. Management’s comments, in their entirety, are included in
Appendix B of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to the audit finding and recommendation.
Management’s actions taken or planned should correct the issues identified in the
finding. Although management stated they could not validate our estimate for monetary
savings, we believe the method used to calculate savings (as described in the finding)
provides a conservative estimate of the costs the Postal Service could save by making
better use of the national MRO contracts over the next 3 years. Thus, we will report the
$651,339 as funds put to better use along with the $217,113 in unrecoverable
questioned costs associated with this finding in our Semiannual Report to Congress.

Renegotiation of Contract Prices Could Achieve Greater Savings

The Postal Service missed an opportunity to decrease MRO expenditures by
approximately $1.1 million. This condition occurred because Postal Service personnel
did not always inform responsible contracting officers of lower prices found outside of
the national contracts. According to the contracting officer, MLB-CO-03-010 requires




                                                     5
Compliance with the Use of MSC Industrial                                                            CA-AR-07-004
 Supply Co, Inc. and W.W. Grainger, Inc. National Contracts




employees to contact the contracting officer if they become aware of items that are
lower than contract pricing.

We identified 20,804 eBuy transactions that did not benefit from lower prices. To
accomplish this, we extracted all MRO purchases from eMARS to obtain the item OEM
or NSN. We then used this list to identify similar purchases made through eBuy from
June 1, 2005, through May 31, 2006. Once we identified similar items, we compared
the actual price paid from the eBuy system to the average eMARS price. The following
table shows examples of items and prices that could be renegotiated based on lower
prices found outside of the national contracts.

                             Sample of Items for Price Renegotiation

                                                                                                 Total
                                                                                               Potential
                                                                     Purchase          Catalog   Price
               Item                                  Quantity          Price            Price   Savings
Xxxx, Xxxxxxxxxxx                                       XXX              XXXX              XXX XXXXXXX
XXXXXXXX/XXXXXX
Xxxx, Xxxxx                                                   XX          XXXX            XXXX XXXXXXX
Xxxxxx, Xxxxxxxxxx Xxxxxxx                                   XXX           XXX             XXX XXXXXXX
Xxxx, Xxxxx X Xxxx Xxxx Xx Xxxxx                              XX         XXXXX           XXXXX   XXXXX
Xxxx
Xxxxx Xxxxxxxxxx XXXXX ( XxxXX)                              XXX             XXX             XXX          XXXXX

As a result, we determined that if the Postal Service had renegotiated the prices for
selected MRO items, they would have saved $366,5918 in the period we examined. By
renegotiating selected MRO prices, the Postal Service could save $1,099,773 over the
next 3 years.

Recommendations

We recommend the Vice President, Supply Management:

2. Coordinate with the Senior Vice President, Operations, to direct personnel who
   purchase maintenance, repair, and operating supplies to notify responsible
   contracting officers when they find lower prices elsewhere.

3. Direct contracting officers responsible for managing the two national maintenance,
   repair, and operating (MRO) supply contracts to renegotiate contracted prices for the
   selected MRO supplies where lower prices have been identified.

8
 To assess the monetary impact to the Postal Service, we only used transactions that had a price difference of 50
cents or higher, multiplied by the purchased quantities identified in eBuy.




                                                         6
Compliance with the Use of MSC Industrial                                  CA-AR-07-004
 Supply Co, Inc. and W.W. Grainger, Inc. National Contracts




Management’s Comments

Management agreed with our finding and recommendations, but stated that they were
not in position to assess the potential monetary savings. To address our
recommendations, Supply Management indicated that, in coordination with Operations,
they would communicate these issues to the cognizant staff. They also indicated that
Supply Management personnel have already started efforts to review MRO supplies
pricing for negotiation purposes. Supply Management plans to complete these actions
in the fourth quarter of FY 2007.

Evaluation of Management’s Comments

Management’s comments are responsive to the audit finding and recommendations.
Management’s actions taken or planned should correct the issues identified in the
finding. Although management stated they could not validate our estimate for monetary
savings, we believe the method used to calculate savings provides a reasonable
estimate of costs the Postal Service could save by renegotiating selected MRO prices.
Since management stated they routinely renegotiate prices, we believe the potential
savings are applicable, and we will report the $1,099,773 of funds put to better use
associated with this finding in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.

  E-Signed by Tammy Whitcomb
 ERIFY authenticity with ApproveI




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: William P. Galligan
    Marie K. Martinez
    Katherine S. Banks




                                                     7
Compliance with the Use of MSC Industrial                                       CA-AR-07-004
 Supply Co, Inc. and W.W. Grainger, Inc. National Contracts



                                            APPENDIX A

                          SUMMARY OF MONETARY IMPACT

                                                              Unrecoverable    Funds Put
                                                               Questioned      To Better
                     Finding                                      Costs           Use
Mandated National Contracts Were Not Used                           $217,113      $651,339
Monetary Savings Could Increase by                                              $1,099,773
Renegotiating Prices for Selected MRO Items
                     TOTALS                                         $217,113    $1,751,112


NOTES

QUESTIONED COSTS – A cost that is unnecessary, unreasonable, or unsupported; or
an alleged violation of law, regulation, or contract.

UNRECOVERABLE COSTS – A cost that perhaps should not have been incurred and
is not recoverable.

FUNDS PUT TO BETTER USE – Funds that could be used more efficiently by
implementing recommended actions.




                                                     8
Compliance with the Use of MSC Industrial                     CA-AR-07-004
 Supply Co, Inc. and W.W. Grainger, Inc. National Contracts


                    APPENDIX B MANAGEMENT’S COMMENTS




                                                     9
Compliance with the Use of MSC Industrial                     CA-AR-07-004
 Supply Co, Inc. and W.W. Grainger, Inc. National Contracts




                                                    10
